<html>
<title> - U.S. FOREIGN POLICY TOWARD IRAQ</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







                    U.S. FOREIGN POLICY TOWARD IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-83

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-554 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida














                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. Brett McGurk, Deputy Assistant Secretary for Iraq and Iran, 
  Bureau of Near Eastern Affairs, U.S. Department of State.......     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Brett McGurk: Prepared statement.............................    11

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
Responses from Mr. Brett McGurk to questions submitted for the 
  record by the Honorable Brad Sherman, a Representative in 
  Congress from the State of California..........................    45

 
                    U.S. FOREIGN POLICY TOWARD IRAQ

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:36 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. If the witnesses could take their spot on 
the dais.
    The subcommittee will come to order. I apologize for being 
late. So sorry. After recognizing myself and the ranking member 
Deutch for 5 minutes each for our opening statements, I will 
recognize other members seeking recognition for 1 minute. We 
will then hear from our witnesses and without objection, the 
witnesses' prepared statements will be made a part of the 
record. Members may have 5 days to insert questions and 
statements for the record, subject to the length limitation in 
the rules.
    Before we begin this afternoon's hearing, I will hand 
Deputy Assistant Secretary McGurk an envelope, and ask that he 
please deliver it to Secretary Kerry. These are my previous 
letters to Secretary Kerry pleading for the United States to 
help the residents of Camps Ashraf and Liberty and to prevent 
another deadly attack like the one from September at Camp 
Ashraf which left 52 dead and 7 hostages who are still missing.
    Also, a video taken by the residents of Ashraf during the 
latest assault that I urge Secretary Kerry and all members of 
the subcommittee to view, and finally, a letter to Secretary 
Kerry regarding the return of Iraqi Jewish community artifacts 
that are now on display at the National Archives.
    In 2003, U.S. and coalition forces found a trove of Iraqi 
Jewish religious and cultural artifacts being warehoused in the 
basement of Saddam Hussein's secret police headquarters, and 
the U.S. subsequently brought them here to the National 
Archives for restoration, preservation, and display. However, 
these artifacts are scheduled to be returned to Iraq where the 
government will claim possession of these artifacts that were 
unjustly taken from the Iraqi Jewish community. The U.S. 
Government must not return those stolen treasures to the Iraqi 
Government, but instead, should facilitate their return to 
their rightful owners or their descendants.
    Therefore, on behalf of me, Congressman Steve Israel, and 
over 40 of our House colleagues, we ask you, Deputy Secretary 
McGurk, to personally deliver this letter to Secretary Kerry 
and the Department of State ensure that the Iraqi Jewish 
community does not get robbed again of its collective memory 
and treasures. Thank you, sir. The Chair now recognizes herself 
for 5 minutes.
    Two years ago next month, the United States withdrew our 
last troops from Iraq, and the American mission in Iraq 
formally ended. Instead of leaving behind a residual force 
sizeable enough to help maintain the gains we made in Iraq, and 
to continue to assist the Iraqis as they made the important 
steps toward democracy, the administration dithered, failed to 
actively seek a resolution to extend our presence in Iraq, and 
withdrew completely rather than stay engaged. Yet, shortly 
after our last soldier left, President Obama addressed troops 
at Fort Bragg and said, ``We are leaving behind a sovereign, 
stable and self-reliant Iraq.''
    However, what we have seen over the past 2 years, and it 
has been even more pronounced in the past few months, is that 
Iraq is far from stable, and it is only getting worse. 
Increasing sectarian violence, fueled by al-Qaeda in Iraq, AQI, 
also known as the Islamic state of Iraq in al-Sham, is now at a 
level not seen since 2008, and has led to rising civilian death 
tolls.
    According to multiple sources, so far this year, there have 
been over 7,000 civilian deaths, a number that is more than 
double for all of last year, and there are now an average 63--
68, excuse me, car bombings a month, and multiple location 
attacks are occurring at a much greater frequency. The 
resurgence of AQI and the Shiite militias threatens to ignite 
an all-out civil war along ethnic and sectarian lines that 
could topple the Iraqi Government. The violence may spread 
across Iraq and Syria, and could enable al-Qaeda to establish a 
safe haven from which to attack U.S. interests and the 
interests of our allies in the region. And with the United 
States no longer there to act as a deterrent, Iran has quickly 
moved in to fill the void that we have left behind and has been 
exerting a great deal of influence over Prime Minister Maliki 
and many of the Shiite factions. This is a very serious cause 
for concern and a real threat to U.S. national security 
interest to the region.
    Maliki and his government have done little to prevent or 
stop Iranian arms supplies from being flown over Iraq to Assad 
and his murderous forces in Syria. I have repeatedly urged the 
administration to press Maliki to be more proactive in stopping 
these flights that carry military personnel, arms and equipment 
to Assad, yet the flights continue.
    Another example of Iran's influence in Iraq is the 
continued attacks against the people of Camp Ashraf and Camp 
Liberty, who, despite being guaranteed safety and security from 
the Government of Iraq and the United Nations, have faced 
several deadly attacks against their compounds this year. These 
anti-Iranian regime dissidents have been living in fear every 
day while agents of Tehran attack their camps without 
repercussions and without Maliki making any effort to stop the 
violence. The U.S. must press Maliki and the U.N. to live up to 
their obligations under the December 2011 Memo of 
Understanding, and protect the residents of these camps. But 
there is still a chance to reverse course in Iraq. Next April, 
Iraq will hold national elections. The U.S. must work with Iraq 
to ensure that these elections are inclusive; that they are 
free, fair, and transparent.
    While Maliki was here to visit President Obama, he made it 
clear that he wants more U.S. military equipment to help fight 
the growing terrorist threat. The U.S. must not commit to 
increase security assistance until Maliki and the Iraqi 
Government show that they are serious about combating the 
terrorist threat, will provide security to the Camp Ashraf and 
Liberty residents, and are willing to implement the reforms 
needed in Iraq to bring democracy and stability while also 
securing U.S. national security interests.
    It is time for the administration to get serious about its 
commitment to a democratic and stable Iraq, and to increase 
U.S. influence in Iraq so that it does not even more closely 
align itself with Iran and our other enemies. And with that, I 
would like to yield to Mr. Cicilline, if he would like to 
represent the Democratic side. Thank you, sir.
    Mr. Cicilline. Thank you, Madam Chair, and thank you for 
convening this hearing along with Ranking Member Deutch. Since 
U.S. combat troops withdrew from Iraq in 2011, we have seen 
limited progress in building peace, democracy, and stability. I 
have very strong concerns about the violence and general unrest 
in Iraq, especially since Iraqi people have endured 
considerable hardships.
    The United States has worked to assist Iraq in these 
efforts, but internal and regional issues persist, including 
threats from al-Qaeda. Unfortunately, these are very real and 
very serious, especially as we continue to encounter and handle 
many complicated issues in the region, particularly Iran, and 
Syria. I believe the United States must work to forge a strong 
and allied relationship with Iraq as soon as possible, but also 
recognize the ultimate responsibility of the Iraqi people with 
stability, prosperity, and peace of their own nation.
    I look forward to hearing the perspective of the witnesses 
we have assembled to discuss the future relationship with Iraq, 
what we can learn from our actions over the last decade, and 
how they will help to shape our relationships with Iraq, and 
other nations in the region. I welcome the witnesses.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline. Mr. Chabot is 
recognized.
    Mr. Chabot. Thank you, Madam Chair. I think we would be 
remiss if before I had my opening remarks if we could recognize 
our former colleague, Congressman Mike Flanagan from Chicago, 
Illinois, who served his constituents extremely well. 
Personally, when I first came up here in 1994, he is just one 
Great American there. Why don't you stand up, Mike. Mike 
Flanagan. All right.
    And now my statement. The United States spent nearly a 
decade securing and helping to build the foundation of a 
prosperous and democratic Iraq. Thousands of American lives 
were lost, billions of dollars were spent. In 2011, when we 
were preparing for the transition from a Defense Department-led 
mission to a State Department-led mission, many of us in the 
Congress expressed concerns that a complete withdrawal of our 
Armed Forces personnel would be premature because Iraq did not 
appear to be ready to stand on its own, and that we ran the 
risk of squandering much of the progress that we had achieved.
    Having just returned from a recent visit there back in 
2011, I was one of those Members who expressed that skepticism. 
When President Obama surprised nearly everybody, including our 
military leaders, and many of our diplomats by withdrawing all 
of our military personnel while the political situation in Iraq 
remained dangerously unstable, I am afraid our worst fears are 
being realized. Two years later, Iraq may well be on the verge 
of a civil war. I am looking forward to the testimony this 
afternoon with the hope that the administration can shed some 
light on its Iraq policy, and I yield back the balance of my 
time.
    Ms. Ros-Lehtinen. Thank you, Mr. Chabot. Mr. Vargas is 
recognized.
    Mr. Vargas. Thank you very much again, Madam Chair, and 
Ranking Member for the opportunity to speak here today and for 
this important meeting. Nearly 2 years ago, as it was said, the 
United States withdrew our last troops from Iraq. The main 
territorial, political, and economic divisions within the 
country remain ripe and unresolved. Increased sectarian 
violence and the inability of the Maliki government to govern 
in a transparent and inclusive manner has left a power vacuum 
all too often filled by al-Qaeda and Iranian influences, and we 
see Iraq careening toward a civil war. And importantly now, 
too, the critical lessons that we learned or didn't learn and 
the insights that we learned in Iraq will be important also as 
we advance our negotiations with Afghanistan toward a final 
bilateral security agreement and I do have to ask, as many of 
my constituents ask, was it all worth it? Was it worth it? 
Thank you.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Wilson of South 
Carolina is recognized.
    Mr. Wilson. Thank you, Madam Chair, and thank you very much 
for having this hearing today. I am very grateful that over the 
years of my service I had the opportunity to visit Iraq 11 
times. I am very hopeful for the people of Iraq, but I 
obviously am very concerned, and I certainly hope the 
administration is making every effort to avoid what we have 
already heard could be an impending civil war where you have 
the Sunni-Shiite divide, where you have an extraordinary 
example of progress that I have observed in the Kurdish region 
of Iraq; what a model hopefully for the rest of the country to 
be able to have diversity. It is also personal to me. My oldest 
son served for a year with the field artillery in Iraq, and he 
was military police and traveled the country in different 
convoys. Additionally, my second son has been a doctor serving 
with the rangers and the SEALS in Iraq, so our family wants 
success. Thank you.
    Ms. Ros-Lehtinen. Thank for their service. And I am now 
pleased to yield 5 minutes for his opening statement to the 
ranking member of our subcommittee, my Florida colleague, Mr. 
Deutch.
    Mr. Deutch. Thank you, Madam Chairman, and thanks for 
holding this hearing. First, I would like to recognize the 
Iraqi Ambassador who is here today. Thank you for being here, 
Ambassador. We look forward to working with you to help to 
ensure a stable and democratic Iraq.
    It has been 2 years since U.S. forces withdrew from Iraq 
and we would be remiss if we didn't remember the tragic 
sacrifices that so many of our bravest have suffered. Eight 
long years of war resulted in the deaths of 4,500 U.S. troops, 
more than 32,000 troops were wounded, including thousands who 
are now living with brain and spinal injuries. Their sacrifices 
will always be remembered and greatly appreciated. Yet, since 
the troop withdrawal, sectarian violence has been spiraling out 
of control with violence at the highest level since 2006. This 
has left many wondering what exactly has changed in Iraq. 
Reports indicate that nearly 7,000 Iraqis have been killed this 
year with almost 1,000 killed in September alone. Many believe 
the rise in sectarian violence to be a result of efforts by 
Prime Minister Maliki to consolidate political power at the 
expense of Sunni and Kurdish opponents.
    This perspective, along with the dangerous reemergence of 
al-Qaeda in Iraq, has contributed to Sunni extremists targeting 
Shiite communities which in response, has led to government-run 
security operations in Sunni areas. All of that contributed to 
a violent cycle that appears to only be intensifying with no 
immediate solution in sight. Yet, we can't look at U.S. policy 
toward Iraq in a vacuum. We must also do so in the context of 
the broader region. The United States has our fair share of 
challenges in the Middle East. But a constructive relationship 
with Iraq, one that is united in our fight against extremists 
and committed to upholding democracy can have significant 
impact on a region in turmoil.
    Iraq can play a critical role in resolving the conflict in 
Syria, stopping the spread of extremism, preventing a nuclear 
Iran, and encouraging new regional partnerships. Furthermore, 
by virtue of its geography and history, Iraq will arguably play 
the most important role in helping to address the alarming 
sectarian division between extremist Sunni and Shiite elements 
that are spreading throughout the region. But I am troubled 
that Prime Minister Maliki's neutrality in the Syrian conflict, 
I am worried that Iraq is increasingly susceptible to Iranian 
influence. Earlier this spring, many of my colleagues joined me 
in sending a letter to Secretary Kerry that expressed our 
serious concerns that Iranian flights were continuing to use 
Iraqi air space to transport weapons to Assad's forces in 
Syria. While the Iraqi Government responded after months of 
prodding by grounding several flights, it is unclear whether 
these Iranian flights continued to go unchecked, and I look 
forward to hearing whether there has been any progress on this 
issue.
    For the past decade, Iraq dominated U.S. foreign policy. We 
can't allow it to now disappear into our rearview mirror. The 
challenges in stabilizing Iraq are great, but I believe the 
risk of letting Iraq devolve into al-Qaeda's playground are 
even greater. I recognize that developing an effective and 
sustainable power-sharing agreement between the Shiite, Sunnis 
and Kurds is not easy, but we must encourage and promote 
dialogue. I also recognize that despite Iraq's political 
challenges, it made drastic improvements in their economy. Iraq 
is now the second highest oil producer in OPEC and the GDP has 
increased about 10 percent per year since 2011. These are the 
kind of important gains that will be crucial to long-term 
stability.
    Another key benchmark in Iraq's future will be the upcoming 
national parliamentary election scheduled for April 2014. It is 
my hope that elections will bring a new political order that 
works to govern inclusively and effectively. I look forward to 
hearing what the State Department is doing to help maintain an 
inclusive political process and to strengthen democratic 
institutions.
    Deputy Assistant Secretary McGurk, I hope that today you 
will be able to provide greater insight into the future of 
U.S./Iraq relations, and while there is no doubt, the current 
security situation is absolutely untenable, this relationship 
cannot be built solely on arms sales. We can strengthen 
economic and cultural ties that will help to provide a more 
prosperous future for all Iraqis, and we must promote a process 
that results in a lasting and equitable power-sharing agreement 
that is fair to all Iraqis. Madam Chairman, again, thank you 
for holding this hearing and I look forward to our discussion.
    Ms. Ros-Lehtinen. Thank you. Thank you for an excellent 
opening statement. We turn to Mr. Weber for any opening 
statement he would like to make.
    Mr. Weber. Thank you, Madam Chair. I have none at this 
time.
    Ms. Ros-Lehtinen. We like to hear that.
    Mr. Weber. I do, too.
    Ms. Ros-Lehtinen. Let me see. Mr. Meadows, is that who is 
next to you there? A good looking guy.
    Mr. Meadows. Thank you, Madam Chair. Very briefly, I just 
wanted to thank you for coming to testify. Obviously, we need 
to use all of our diplomatic tools necessary to avoid a civil 
war and prevent the spread of violence there in Iraq. And even 
though we have the oversight responsibility and connections 
with the U.S. Ambassador over key Iraqi developments and the 
sale of arms, et cetera, I look forward to your testimony on 
how we can best accommodate and work with what is happening on 
the ground there, work with the Iraqi people in a spirit of 
friendship and cooperation, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Schneider is 
recognized.
    Mr. Schneider. Thank you, Madam Chair, and I will be brief 
so we can get to our panel. But as we sit here 2 years after 
the last troops left Iraq, Iraq continues to be a linchpin in 
the Middle East, in many respects influencing the fortune of 
its neighbors. Thus far, Iraq has not used this opportunity 
well, and has engaged in behavior that shows regional 
instability rather than security. In April, I joined with many 
of my colleagues here in the Foreign Affairs Committee in 
writing a letter to the Prime Minister Maliki of Iraq asking 
that he do more to stop the illicit arms trafficking and 
Iranian weapons to the Assad regime in Syria.
    It remains unclear if Iraq continues to perform inspections 
of civilian aircraft, and may continue to promote regional 
conflict by allowing these arms to flow from Iran into Syria. I 
look forward to hearing from our panel what more can be done to 
work with Iraq to promote U.S. foreign policy goals in the 
region, including working toward long-term stability and 
security in Iraq. Thank you, Madam Chair, I yield back my time.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Rohrabacher is 
recognized.
    Mr. Rohrabacher. Thank you very much. Madam Chairman, Iraq 
is now an ally of the Iranian Mullah dictatorship. The Maliki 
Iraq regime is at best an accomplice to the murders of unarmed 
refugees at Camp Ashraf, and is a regime that has a disdain for 
the American sacrifice that gave them the sacrifice of our 
blood and our treasure that freed them from Saddam Hussein's 
dictatorship. These ingrates should not receive one penny, not 
one red cent of American aid, and today we have with us, Madam 
Chairman, someone who exemplifies the actual horror story that 
it is under this regime.
    We have Afzal--and I hope I pronounce this right, Afzal 
Emadi, whose brother was among the 52 killed at Camp Ashraf and 
has a cousin who is now being held hostage by the Iraqi regime. 
He resides in my district and I would like him to stand now if 
he could. And we are sorry for your family, and they are in our 
thoughts as we preside over this hearing. Thank you.
    Ms. Ros-Lehtinen. Thank you, sir. Ms. Meng is recognized.
    Ms. Meng. Thank you, Madam Chairman, Ranking Member Deutch, 
and our distinguished panelist. It has been 2 years since the 
withdrawal of U.S. troops from Iraq. And while we have done 
much to give its fledgling democratic government a real chance 
of success in the upcoming 2014 national elections, there are 
still many challenges. Sectarian violence and regional 
conflicts remain rampant while our ability to work with the 
Iraqi Government through the office of security operation has 
greatly diminished, and with rising Iranian influence in Iraq, 
the need for a comprehensive and clearly defined foreign policy 
is vital.
    I am confident that today's discussion of these issues will 
prove valuable in determining the appropriate role of the U.S. 
presence in Iraq going forward. Regarding the issue of Iraqi 
Jewish artifacts that are currently on display in the National 
Archives, I want to especially acknowledge and thank 
Congresswoman Ros-Lehtinen, Congressman Israel, and Senator 
Schumer for their leadership on this issue. Rescued from 
Baghdad in 2003, the collection of ancient artifacts include 
letters, books, and personal photos that were left behind by 
Jews after World War II who experienced extreme anti-Semitism, 
including harassment and violence.
    It is imperative that these artifacts are returned to the 
descendants of the Jewish community from which they were 
wrongly confiscated, and not by the Iraqi Government. We want 
to ensure justice for the Iraqi Jewish community. I look 
forward to hearing Mr. Brett McGurk's testimony on these 
issues. Thank you.
    Ms. Ros-Lehtinen. Thank you very much. And now our 
subcommittee is so pleased to welcome a gentleman who has an 
impressive resume, Mr. Brett McGurk, who is Deputy Assistant 
Secretary for Iraq and Iran at the State Department. Prior to 
this, Mr. McGurk served as a special advisor to three U.S. 
Ambassadors to Iraq in the Obama administration, and as 
director for Iraq and Special Assistant to the President as 
well as Senior Director for Iraq and Afghanistan in the Bush 
administration.
    Welcome, Mr. McGurk. We look forward to your testimony and 
your full and complete statement will be made a part of record. 
You are recognized for 5 minutes, sir, welcome.

 STATEMENT OF MR. BRETT MCGURK, DEPUTY ASSISTANT SECRETARY FOR 
IRAQ AND IRAN, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Mr. McGurk. Thank you, Chairman Ros-Lehtinen, Ranking 
Member Deutch and members of the subcommittee. Thank you for 
inviting me to discuss the situation in Iraq. My testimony this 
afternoon will focus on our efforts to safeguard U.S. interests 
in this important country bearing in mind our obligations to 
build on all that America sacrificed over the past decade. The 
challenges are daunting. Internally and regionally, pressure 
continues to build. The next year in Iraq may be pivotal, 
particularly with national elections now set for April 30, 
2014. I look forward to working closely with this subcommittee 
as we navigate this difficult terrain and ensure that core U.S. 
interests are protected.
    Our policy is focused on these core interests and organized 
along the following five lines of effort. First, maintaining a 
unified and Federal Iraq; second, supporting increases in the 
production and export of oil resources; third, promoting Iraq's 
strategic independence and regional integration; fourth, 
countering the reemergence of al-Qaeda in Iraq; and fifth, 
supporting Iraq's democratic institutions and trajectory.
    I will review briefly our efforts along these tracks 
measuring progress from Secretary Kerry's March visit to 
Baghdad. After that visit, the Secretary asked me to travel to 
Iraq and I have made four trips since with another scheduled 
for next week. I hope therefore to provide an overview of the 
situation as viewed from here in Washington, as well as on the 
ground in Iraq. The first line of effort is maintaining a 
unified and Federal Iraq. The focus here primarily is on 
relations between the central government in Baghdad and the 
Iraqi Kurdistan Region, or IKR. When the Secretary visited Iraq 
in March, tensions were at a dangerous boil. Kurdish ministers 
and parliamentarians were boycotting Baghdad, and Kurdish 
Peshmerga forces faced off against the Iraqi Army in disputed 
boundary areas. Intensive diplomatic engagement led to a 
detente with both sides pulling back and disputes returning to 
the political arena where they belong. Since then, seven joint 
committees have been formed between Baghdad and Erbil. Prime 
Minister Maliki has visited Erbil and President Barzani of the 
IKR has visited Baghdad for the first time in 2 years.
    The second round of effort, importantly, is maintaining the 
increases in production and export of oil resources. Iraq is 
estimated to have the fifth largest proven oil reserves in the 
world. Last year it surpassed Iran as OPEC's second largest 
producer. Earlier this year, Iraq surpassed Iran as a leading 
exporter to India and China, which has helped enforce robust 
international sanctions on Iranian oil exports. Today we are 
working with the Iraqis on a strategic vision for their 
national infrastructure, with export routes from the south in 
Basra, to the Red Sea and through Turkey to the Mediterranean. 
We are also working with all political blocks to pursue a long-
term win/win agenda, with Iraq as a 6-10 million barrel per day 
producer with revenue sharing pacts and export routes to unite 
disparate interests in Iraq and regionally.
    The third line of effort is promoting strategic 
independence and regional integration. Iraq shares a 400-mile 
border with Syria and a 900-mile border with Iran, which we 
learned from hard experience can be difficult to control. In 
addition, at the time of Secretary Kerry's visit to Baghdad, 
tensions with Turkey, lingering disputes with Kuwait, and 
strained relations with the GCC threatened to further isolate 
Iraq and widen the door to nefarious influences from other 
neighbors. Thus, beginning in March, we launched a quiet but 
active campaign to ease tensions with Turkey, settle accounts 
with Kuwait, strengthen ties with Jordan, and accelerate 
efforts to reintegrate Iraq with its Gulf neighbors.
    These efforts have seen some success. In June, the U.N. 
Security Council voted to normalize relations between Iraq and 
Kuwait. This week, Turkey's foreign minister visited Baghdad 
for the first time in 2 years and both countries agreed to 
restore positive ties. Jordan and Iraq are now coordinating 
efforts to develop a pipeline from Basra to Aqaba, and next 
week, DOE will host a strategic dialogue between United States, 
Iraq, Jordan, and Egypt.
    Iraq has also participated recently in regional military 
exercises in Jordan and Bahrain. While these are positive 
steps, Iraq's full reintegration with Gulf partners will be 
influenced by its stance in the conflict in Syria, which is a 
daily topic of our discussion with Iraqi leaders.
    The fourth line of effort is countering the reemergence of 
al-Qaeda in Iraq. Everything I have just mentioned depends on 
Iraq stemming the rising levels of violence seen over the last 
year. So far this year, nearly 6,000 Iraqis have been killed 
compared with 4,400 who were killed in each of the past 2 
years.
    Nearly all high-profile mass casualty attacks, the vehicle 
and suicide bombs are perpetrated by terrorist groups now led 
by Iraq's al-Qaeda affiliate, the Islamic State of Iraq and the 
Levant, or ISIL. ISIL is led by Abu Bakr al-Baghdadi, a 
specially designated global terrorist under U.S. law who is now 
based in Syria. Earlier this year, Baghdadi announced a 
campaign of terror to include attacks against Iraqi security 
services, government targets, and civilians. Since then, we 
have seen upwards of 40 suicide bombers per month in Iraq, 
targeting playgrounds, mosques, markets, and funerals, in 
addition to government sites from Basra, to Baghdad, to Erbil. 
These attacks, in turn, have given rise to new calls from 
Shiite extremist militias, which had remained dormant since 
2011.
    ISIL has benefited from a permissive operating environment 
due to inherent weaknesses of Iraqi security forces, poor 
operational tactics, and popular grievances which remain 
unaddressed in Sunni areas.
    Fortunately, we have defeated this enemy before through 
intelligence-driven security operations and mobilizing popular 
forces against extremist networks. Iraqi leaders today are 
working to develop this same approach, with our support, but 
not to our troops, and this remains a daily topic of our 
conversation with them from the prime minister on down.
    Finally, the fifth line of effort is supporting Iraq's 
democratic institutions and trajectory, isolating extremists 
will be near impossible if the political process is not moving 
forward. The Iraqi Parliament just last week passed a long-
delayed law to govern national elections which are now set for 
April 30, 2014. We have made clear to all Iraqi contacts that 
these elections must be on time, well-prepared, and designed to 
produce genuine and credible results. In the meantime we are 
engaged with all parties and blocks to facilitate progress in 
Parliament, and a package of laws to advance national 
reconciliation.
    In conclusion, vital interests are at stake in Iraq. 
Hearings like this are critically important to ensuring that we 
are doing all we possibly can to safeguard those interests and 
to ensure that we have built on the sacrifice we have made over 
the last decade. Thank you again for inviting me to speak with 
you, and I look forward to your questions.
    [The prepared statement of McGurk follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, sir.
    And before I begin my questions, I would like to recognize 
Lieutenant Colonel Greg McCarthy, and Matt Zweig, two Iraqi war 
veterans who serve on our Foreign Affairs Committee. We thank 
you for your service.
    Mr. McGurk, thank you for your testimony. You testified in 
your written statement that it is legitimate to question Iraq's 
independence given Iran's ongoing use of Iraqi air space to 
resupply the Assad regime. Why is Iraq not doing more to stop 
the overflights to Assad? Is the Maliki government trying to 
use this issue as a means to try to coerce the U.S. and to 
provide Maliki more arms and advanced weapons systems? Also, 
you testified in your statement that the State Department is 
watchful of Iranian efforts to use Iraq in order to circumvent 
international sanctions. To what extent has Iraq been 
successful in that?
    Are there also fighters flocking into Syria to fight on--
well, could be both sides--but really all sides of that 
conflict? There are reports that suggest that there are members 
of the Maliki government who are allowing some Iraqis to cross 
into Syria to join the fight. Why is the Iraqi Government 
unwilling to stop these extremists from joining ranks with 
those fighting in Syria, and does the Maliki government's 
refusal to denounce Assad show that his ties with Iran run 
deep, and that he does not want to upset the regime in Tehran?
    And lastly, at the start of the hearing, I handed you an 
envelope filled with letters and a video, and I would like you 
to address the issues in the letters. Will the State Department 
reevaluate its decision to hand these Jewish artifacts over to 
the Iraqi Government, and instead, work to facilitate the safe 
and rightful return of these important artifacts to their 
rightful owners or their descendants?
    Also, the plight of the residents of Camp Ashraf and Camp 
Liberty has been tragic, but the situation is getting worse. 
This year we saw several deadly attacks, including the 
previously mentioned attack at Ashraf in September that left 52 
dead, and seven hostages captured. What has the U.S. done to 
ensure that the Government of Iraq lives up to its obligation 
to protect these residents, and why have we not insisted that 
the thousands of T-WALLs needed to protect the camp be 
installed?
    To date, I am told that only 192 of the 17,500 T-WALLs have 
been installed. This is woefully inadequate and more need to be 
installed by the end of this year. And I respectfully request 
and would appreciate a regular progress report to our 
subcommittee on the installment of these protective T-WALLs. 
Thank you, sir.
    Mr. McGurk. Madam Chairman, first I will make sure that 
your letter gets to the Secretary, and this is a daily topic of 
conversation with all of the issues in Iraq. But let me kind of 
go through issue by issue. I will start with the Jewish 
archives. As you know, the archives are now on display at the 
National Archives. I went to see them last week. It is really a 
remarkable display, both about the Jewish heritage and the 
tragic history of this community in Iraq. We are also in daily 
conversation with the Iraqi Government and with the Jewish 
community here in Iraq. This morning, I was in communication 
with Rabbi Baker from the American Jewish Council. I have also 
been in regular conversation with Ambassador Faily who is here, 
representing the Iraqi Government.
    As you know, we have a commitment under an agreement from 
2003 to return the archives to Iraq next summer, by the end of 
next summer. We have paid for Iraqi archivists who are now here 
training with the National Archives to make sure that these 
archives are preserved and protected.
    Ms. Ros-Lehtinen. I thank you, sir. I know other members 
will follow up, but my time is so limited, about Iran, and 
Syria, and Camp Ashraf.
    Mr. McGurk. I will stay just briefly on the archives. We 
are open to discussion about discussing the disposition of 
these archives and I know the Ambassador agrees with that. And 
I am happy to discuss that further. On the MEK, this is an 
issue that I am tracking every single day on the tragic attack 
on September 1st. I went to Iraq shortly thereafter. We worked 
very hard to get the remaining survivors off of Camp Ashraf 
that were not safe. I visited the residents and the survivors 
at Camp Liberty. We are determined to keep them as safe as 
possible.
    Ms. Ros-Lehtinen. The T-WALLs?
    Mr. McGurk. Yes, thank you. I just spoke with Ambassador 
Beecroft this morning. There are about 1,400 large T-WALLs now. 
We want to get as many T-WALLs in as possible. Some of this 
comes down to logistics. Some of it comes down to getting the 
right contractor. Some of it comes down to getting the right 
median place for where the T-WALLs go. But there is no excuse. 
The T-WALLs need to move into the camp.
    Ms. Ros-Lehtinen. Thank you, and on Iran's influence in 
Iraq, and Syria.
    Mr. McGurk. Iran has influence in Baghdad. We have 
influence in Baghdad. Other states in the region have 
tremendous influence in Baghdad. The issue of overflights, 
Madam Chairman, I would really welcome the opportunity to come 
and brief you in a classified setting. I can go into some 
detail on the numbers and the flights.
    Ms. Ros-Lehtinen. I welcome that. Thank you, and my time is 
up, but we will do that, sir. Thank you. Mr. Deutch is 
recognized.
    Mr. Deutch. Thank you, Madam Chairman. I would actually 
like to get back to the issue of the archives. You said that 
you are open to discussion. These are just a couple of 
observations, and I appreciate the attention that you paid to 
this issue already. Iraq, Babylon was the center of Judaism for 
1,000 years, and these documents, tattered as they were, found 
now a decade ago, are, according to the agreement that was 
reached with the Provisional Authority, were supposed to be 
sent back to a place where the number of Jews, numbers perhaps 
in the single digits. Many of the documents are very personal 
in nature, records of the community, things that are of real 
value to the members of the community and their descendants who 
simply aren't there.
    So help me understand. I understand what the agreement was. 
You also said you are now open to discussion. Can we explore 
that a little bit and if you can just continue where you left 
off? What discussion can we have, and what can we do? What 
would be the holdup to ensure that these items that are so 
personal to the community that is no longer living in the 
country can actually reside with the community where it now 
lives?
    Mr. McGurk. All I will say right now is that first, I think 
everybody should go see the exhibit, and if you need the 
technicians who actually traveled to Baghdad in the heart of 
one of the worst periods of the war in 2003 to preserve these 
materials, it is really a truly remarkable effort by the 
National Archives. The State Department is proud to be a 
partner with them in that effort. They will be on display at 
the Archives. They will then be on display in New York. The 
commitment that we made in 2003, and that was a legal agreement 
to allow us to get them out of Iraq to preserve this important 
material. Without that agreement, the material never would have 
been preserved. They will be on display in New York and then 
under this commitment, they will transfer to Baghdad in the 
late summer of next year.
    All I can say is that we have an agreement with the Iraqi 
Ambassador here to begin a conversation about longer term loans 
here in the United States to make sure the people can view 
them. But that will be an ongoing course of discussion. It is 
November now. We have until the end of next summer so we do 
have some time to discuss this. We have heard very loudly and 
clearly the concerns from the community. We have listened to 
those and we have taken them to heart and we will see what we 
can do.
    Mr. Deutch. And I would just add to that, there are, as I 
understand it, some 2,700 books, tens of thousands of 
documents. It certainly seems that it would be possible to be 
able to have the ability to highlight the community that 
existed in Iraq in some fashion while still ensuring that the 
bulk of these records continue to stay with those who are the 
most closely affiliated with them, and whose lives they 
reflect.
    So I appreciate that, and to the extent that that 
conversation is ongoing, there are a lot of us here who offer 
ourselves up to be engaged in it. So I thank you for that.
    I also would like to just follow up. There was an op ed in 
The New York Times that coincided with the visits to the U.S. 
Prime Minister Maliki blamed the growing sectarian violence on 
al-Qaeda's increased influence. And 2 weeks ago, the Washington 
Post reported growing concern over an al-Qaeda affiliated group 
of the Islamic State of Iraq in Syria that is described as more 
extreme than Jabhat al-Nusra. So what can the U.S. do to 
strengthen Iraq's ability to counter these threats, and how do 
we foster the kind of dialog that ultimately is necessary for 
regional cooperation, in order to prevent the growing 
extremism, and can that be done at all and how do we lead it?
    Mr. McGurk. Thank you. It is a critical question. One of 
the vital interests we face in Iraq is the reemergence of these 
al-Qaeda groups. We had very intense discussions with the prime 
minister when he was here last week about approaching this with 
a holistic strategy. The way we went at this in 2007, 2008, was 
by mobilizing popular forces, the Sons of Iraq in Anbar 
Province, for example. This cannot only be a security-driven 
exercise. We believe we now have an agreement with the Iraqis 
in terms of how to go about this problem, isolating these 
groups. But make no mistake, the Iraqis need security 
assistance. As I put in my written testimony, I describe what 
is happening now. We can help the Iraqis identify some of the 
al-Qaeda camps, and the camps do exist in the western regions 
of the country, but they are not able to effectively target 
those camps. They have unarmored helicopters. When they fly an 
unarmored helicopter to these camps, the helicopters are 
getting shot down. Pilots that we have trained are getting 
killed. Over the course of this year, about 938 members of 
their Iraqi security forces have been killed in action.
    So this is a very serious problem. While the security 
element of the strategy is not the lead element, it is an 
essential element. And that is why we need to help the Iraqis 
as best we can. We are helping them with information sharing 
and we are talking about training some of their forces in 
Jordan, and working with regional partners. The visit of the 
Turkish prime minister to Baghdad was very important. The 
strained relationship between Baghdad and Akra was having an 
impact on the internal environment of Iraq.
    So getting that relationship on a better track is very 
important, and we are going to keep working to isolate these 
groups. In terms of sectarian violence, the violence that we 
have seen in 2011, and 2012; there were about 100 attacks a 
week and they were primarily conducted almost entirely by the 
Sunni extremists, al-Qaeda-type groups. What we have seen this 
year, the violence has gone up. And again, 40 suicide bombers a 
month. That is compared with about 5 a month in 2011 and 2012. 
And those suicide bombers are having a devastating effect 
because they are able to go in and target restaurants, and 
playgrounds, and just having a psychological effect on the 
country, and that is leading for a renewed call for Shia 
extremist militia to form to protect local neighborhoods, and 
this is extremely dangerous. We discussed it with the prime 
minister in great detail. He agrees that this is a very serious 
problem. He also agrees that we have to go about this 
politically, economically, and with information-driven, 
intelligence-driven security operations. So we think we have 
made progress about a common strategy to go after this, but 
this is going to be a day-by-day and very hard work.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Deutch. Mr. Chabot is recognized.
    Mr. Chabot. Thank you, Madam Chair. Mr. McGurk, you 
mentioned in your testimony that Iraq may account for nearly 
half of the anticipated growth in global oil output over the 
current decade. Can we be sure that the existing agreements 
over oil production will be honored in the event of more 
domestic instability in Iraq, and can you elaborate on how 
Iraq's oil production will be affected in the event social 
unrest continues to fester?
    Mr. McGurk. Congressman, it is an excellent, excellent, 
question, because the more the security situation deteriorates, 
that jeopardizes the ability of Iraqis to get that oil on to 
global markets. I want to say what we have been doing with the 
Iraqis is trying to focus them on using their abundant natural 
resources in a strategic way. The problems that beset Iraq are 
not problems that developed over the last year, even last 
decade, or 100 years. They go back, in some cases, 1,000 years.
    We are talking with the Iraqis and having a very good 
conversation with regional partners about how to harness their 
natural resources to align the interests both internally and 
within the region in a stable unified and Federal Iraq. For 
example, having strategic pipelines that run from Basra to the 
Haditha refinery in the heart of Anbar Province, and then south 
through Jordan to the Red Sea, unites the Shi'a in the south, 
the Sunnis in Anbar Province, Jordan's real intense need to 
energy resources. Connecting that pipeline further, and this is 
a discussion that Foreign Minister Davutoglu had with the prime 
minister in Baghdad last week, from the Haditha refinery to the 
Basra refinery, also in Saladin Province and then to Turkey, 
unites the interest of Turkey all the way down to the south and 
southern Iraq.
    And that is something that the Turkish foreign minister 
also pointed out. We are also working with the Kurds and with 
the Iraqis in Baghdad to make sure this is done in a strategic 
way, and done with revenue-sharing pacts that all Iraqis can 
share in their national patrimony. But this is very difficult. 
The maxim we use and it is one that is really enshrined in 
Iraqi constitution is that all of the oil is owned by all of 
the Iraqi people, but that it is better to peacefully divide a 
large pie than to fight over a small one. Right now Iraq is 
producing about 3 million barrels a day. That is more than it 
has produced in almost 20 years. But there are projections from 
the International Energy Agency that if Iraq gets its act 
together and does some things right, it should be producing 6 
million barrel as day by 2020, and we want to help the Iraqis 
get there.
    Mr. Chabot. Thank you. Let me shift gears here. While Iraqi 
Christians find themselves in an increasingly hostile 
environment, the Kurdish region was seen as a safe haven for 
Christian refugees in Iraq. However, a number of bombings 
against Christians in the Kurdish region have changed the 
security situation for Christians and with reports of 
discrimination, Christians no longer feel safe even in the 
Kurdish region. What is the administration doing to help 
Christians and other minorities in Iraq and what is the Maliki 
government doing to protect Iraqi religious minorities?
    Mr. McGurk. Thank you, a very important question. And at 
the State Department, also we are focused on this every single 
day. I try to meet with the Iraqi Christian communities here in 
the United States. When I am in Iraq, I try to meet with the 
Christian leaders. Our Ambassadors engage with them on a 
regular basis. On my last trip, I met with Bishop Warda who is 
in Erbil in the Kurdish region and we asked him, what do you 
really need from us? And he needed some more facilitation with 
the Kurdish Government there to resolve some land disputes and 
they have now set up a joint commission to do just that.
    The prime minister met with Archbishop Sako, the main 
Christian leader in Iraq in early October to talk about the 
threats to the Christian community. The real problem in Iraq 
right now is that every community is under tremendous threat. 
The casualties that have taken place this year, are a threat to 
everybody, but the Christians in particular, and some of the 
other minority communities such as the Shabaks and the Yazidis 
are under a real threat from these al-Qaeda groups.
    We are talking with the Iraqi Christian community here and 
also Christian leaders in Baghdad about what we can do to 
harness local forces to protect their local communities and 
working with the Iraqi Government to get resources into those 
communities. And we have made some progress over the last 3 to 
4 months, but I just, our eyes are wide open at how difficult 
this problem is, and again, the more that this al-Qaeda network 
gains strength and gains roots in Western Iraq, the greater the 
threat will be. That is why we have to go after that in a very 
serious way.
    Mr. Chabot. Thank you. Madam Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you very much. Mr. Connolly is 
recognized.
    Mr. Connolly. I thank the chair. What is the relationship, 
Mr. McGurk, in your view, between the government in Tehran, and 
Mr. Maliki's government in Baghdad?
    Mr. McGurk. It is a relationship that is really 
multifaceted. I mean, look at that border. Iraq is going to 
have cultural, religious, economic relations with Iran. That is 
something we recognize. Where we try to draw a line is any sort 
of security relationship with Iran and we have had some success 
in that area. My experience over the last decade in working 
with Iraqis, whether Shi'a, Sunni, Kurds, Christians everybody, 
is that there is really no love lost between Iraqis and Iran. 
They remember the very long Iran Iraq war in the 1980s, and 
that is really felt very deep in the psychology. Iraq also 
feels----
    Mr. Connolly. Can I interrupt you 1 second? And you would 
say that that view is also shared by the Maliki government 
despite the Shia nature of that government?
    Mr. McGurk. Sometimes it is a mischaracterization to say 
that Shia in Iraq are linked to Shia in Iran. But the Shia in 
Iraq and Grand Ayatollah Sistani in Najov and his philosophy of 
quietism, is totally 180 degrees opposite to the philosophy of 
Khomeini and Khamenei in Tehran which is kind of clerical rule. 
Sistani's view is that more of a democratic tradition, which we 
would recognize and which there should be separation from the 
top clerical leadership in the government. That is something 
that most Iraqis adhere to, and it is a critical distinction to 
really working with this problem.
    Make no mistake, Iranian influence in Baghdad is very 
strong. It is there every day. They have had a presence in 
Baghdad for 10 years. They have had the same people there that 
have built relationships that are very deep, and it is 
something we need to deal with. We have to recognize they are 
going to have a relationship. It is drawing a line at the 
malign and the far east influences from Iran which we are 
trying to do.
    Mr. Connolly. Thank you. I think that is a really important 
distinction. I am glad you got it in the record. Kurdistan, the 
Kurdish area in the north has actually sort of had protected 
autonomy for--going back to right after the first Gulf War of 
the United States. Is that not correct?
    Mr. McGurk. Yes.
    Mr. Connolly. And it has actually flourished as a result, 
not only of our protection, but of its own enterprise and 
initiatives, is that correct?
    Mr. McGurk. Yes.
    Mr. Connolly. And has largely been spared some of the 
violence in the rest of Iraq, both pre-, during, and post-U.S. 
invasion?
    Mr. McGurk. Yes, correct.
    Mr. Connolly. Recently, the Kurds seem to have come to an 
agreement with the Government of Turkey to build a pipeline 
directly to Turkey to provide, I think, largely natural gas, is 
that correct?
    Mr. McGurk. The pipeline--there is a debate whether it is 
going to go directly to Turkey or whether that is going to plug 
into the existing pipelines that exist already. The oil 
pipeline is going to plug into the existing Iraq/Turkey 
pipeline which is on the Kurdish side of the----
    Mr. Connolly. Right, but the Turks and the Kurds have been 
talking about a direct pipeline that would actually bypass the 
national system in Iraq, if I understand it correctly.
    Mr. McGurk. There has been a lot of discussion----
    Mr. Connolly. Right.
    Mr. McGurk [continuing]. A lot of press reports and 
industry reports, but I think actually looking at where the 
pipelines are going, right now the oil pipeline is going to 
plug in on the Kurdish side, and we have not seen a clear 
indication that there is going to be an independent pipeline.
    Mr. Connolly. Well, those same reports you are referring 
to, Mr. McGurk, also report that the United States Government 
has been pretty active, if not animated on this topic, 
discouraging the bypassing of the national pipelines because 
your point earlier, it would diminish the Nation's cohesion 
that we are trying to seek in Iraq. Would that be inaccurate?
    Mr. McGurk. That is not entirely accurate and thank you for 
letting me address that. It is our position that as much oil 
and natural gas from the Kurdish region should get on the 
global markets as soon as possible, full stop. That is our 
position. We look at this very closely, though, and want to 
make sure that it is done in a way that does not have 
repercussion, or backlash that could jeopardize getting to the 
point where I talked about in my testimony that Iraq is a 6-10 
million barrel-a-day producer, though that is a long-term 
vision, and this is a very politically fraught issue in Iraq. 
We don't take sides.
    We look to the Iraqi constitution as the baseline. We try 
to make sure that this is being done and managed in a strategic 
way, but it is our position we want as much oil and gas from 
the Kurdish region getting on the global markets as soon as 
possible.
    Mr. Connolly. And presumably, one other factor is we also 
are not unsympathetic to our long-time ally, Turkey, in trying 
to secure its own fossil fuels.
    Mr. McGurk. Absolutely right, which is why we are big 
supporters of a strategic pipeline going from Basra all the way 
up to Jahan in the Mediterranean through Turkey and having 
Kurdish pipelines plug into that national infrastructure.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. McGurk. It is a win/win vision.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Mr. Wilson is 
recognized.
    Mr. Wilson. Thank you Madam Chair. Mr. Secretary, thank you 
for being here. As I mentioned, I am very, very grateful that I 
have had two sons serve in Iraq, Army, Navy. I am grateful that 
we have even had Members of Congress, my colleague, Congressman 
Kinzinger right here has served twice in Iraq. The American 
people have shed blood on behalf of the people of Iraq, and we 
want success and hope for success.
    Additionally, I have had the opportunity to visit the 
country 11 times. I have been very impressed by the people I 
have met. And again, I am hopeful for the country. But a real 
tragedy has been the murders at Camp Ashraf. Since December 
2008, before our Government turned over the protection of the 
camp to the Iraqi Government, Prime Minister Maliki has 
repeatedly assured the world that it would treat the residents 
humanely and protect them from harm. Yet, it has not kept the 
promise, as 111 residents have been murdered in cold blood and 
more than 1,000 wounded in 5 attacks, including the September 
1st massacre. What is the United States doing to prevent 
further attacks and greater loss of life in terms of ensuring 
the safety and security of the residents?
    Mr. McGurk. Congressman, first let me say thank you for 
your service, and your family's service. Speaking for myself 
and my team, who have spent many years in Iraq and have known 
friends of ours who we have lost in Iraq, it is something that 
we think about every day, and it inspires our work and our 
determination to do everything possible to succeed under very 
difficult circumstances.
    Regarding Camp Ashraf and Camp Liberty, the only place for 
the MEK and the residents of the Camp Liberty to be safe, is 
outside of Iraq. Camp Liberty is a former U.S. military base. 
We lost Americans right nearby there as late as the summer of 
2010. We lost a number of Americans to rocket fire and indirect 
fire attacks in our Embassy compound, one of the most secure 
facilities in the country as late as the summer of 2010. That 
is when we had about 60,000 troops in the country doing 
everything we possibly could to hunt down the rocket teams that 
we knew were targeting us.
    There are cells in Iraq, we believe, directed, inspired 
from Iran, which are targeting the MEK. There is no question 
about that. And the only place where an MEK can be safe is 
outside of Iraq. That is why the State Department, the 
Secretary, has appointed a colleague of mine, Jonathan Winer to 
work this issue full-time, to find a place for them to go. 
Right now, there are about 2,900 residents at Camp Liberty, and 
Albania has taken in about 210. Germany has agreed to take in 
100 and that is it.
    We need to find a place for these people to go, it is an 
urgent humanitarian issue, and an international humanitarian 
crisis. And I went to the camp to meet with the survivors and 
to speak with the families. And I promised to do everything I 
possibly could to get them to safety. And in the meantime, it 
is incumbent upon the Iraqi Government to do everything it 
possibly can to keep them safe, and that means the T-WALLs and 
sandbags and everything else. But the only place for the 
residents to be safe would be outside of Iraq. Since the tragic 
attacks at Camp Liberty on September 1st, 1,300 Iraqis were 
killed, 52 people were massacred at Camp Ashraf.
    This is a tragic, horrifying act. But since then, 1,300 
Iraqis in the country have been killed. The country is 
incredibly dangerous, and for the MEK to be safe they have to 
leave Iraq and we want to find a place for them to go.
    Mr. Wilson. Well, I appreciate your commitment to that. 
After the September 1st massacre, the State Department called 
for an independent investigation by the United Nations, 74 days 
on nothing's been done, let alone an independent investigation. 
Could you tell this committee whether any independent probe has 
been carried out or not? If so, by whom, and what is the 
finding? If not, why not? Five attacks have been launched 
against the residents and not one person has been arrested. 
What do we do to maintain promises of protection?
    Mr. McGurk. Congressman, shortly after the attack, we 
worked with the United Nations to make sure that they got a 
team up to Camp Ashraf within 24 hours of the attack to 
document exactly what happened because there were a lot of 
stories of what happened. They went there, took photographs of 
the bodies to make sure that it was documented as to how these 
people were killed and there is no question about it.
    We have looked very closely at all of our information. I 
know I have had the opportunity to brief some members of the 
subcommittee in a classified setting, which I would be pleased 
to do again to update you on the information that we have. We 
did call for an investigation and for the U.N. to be involved 
in this process. The U.N. was also involved in making sure the 
survivors got out of Camp Ashraf and out of harm's way to Camp 
Liberty.
    Again, Congressman, I would welcome the opportunity to come 
discuss with you in a classified setting exactly everything we 
know about what happened on September 1st.
    Mr. Wilson. And I have been to Camp Liberty many times, but 
I obviously am concerned. I appreciate your commitment and 
indeed, every effort should by made to protect those citizens. 
Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Wilson. Mr. Sherman of 
California is recognized.
    Mr. Sherman. I thank the chair and ranking member for the 
opportunity to participate in this hearing. Maliki wants our 
weapons, yet he allows planes to go from Iran to Syria taking 
murderers, and thugs, and the IRGC and weapons with them. He 
says that he can't defend his own air space, but he certainly 
has not invited Turkey, Saudi Arabia or the United States to 
defend that air space from these murderers that fly leisurely 
across Iraq and do their killing in Syria.
    I want to focus on finances. How much money are we 
scheduled to give Iraq this year? How much do they get from oil 
and are they pumping oil as quickly as they can or constraining 
their production in accordance with OPEC rules?
    Mr. McGurk. In terms of money, we are not really giving 
Iraq much money at all anymore, our assistance levels have gone 
down dramatically.
    Mr. Sherman. But it is still well over $1 billion?
    Mr. McGurk. No, I believe the most recent request is now 
under $1 billion. It has gone from about $1.5 billion last year 
to Fiscal Year 2013 to about $180 million. And I can again 
brief you on the glide path overall presence.
    In terms of oil, it is actually quite the opposite, the 
Iraqis done everything possible to get as much oil on to 
international markets as possible.
    Mr. Sherman. So they are pumping----
    Mr. McGurk. And the Iranian oil minister last week said 
that it was an unfriendly act what the Iraqis were doing in 
terms of getting that much oil on to Iraqi markets. As Iranian 
oil has come down, thanks to our sanctions by at about 1 
million barrels a day, Iraqi oil has gone up by 800,000 barrels 
a day which has really helped stabilize global markets.
    Mr. Sherman. As it would be in production.
    Saddam Hussein's government incurred tens of billions of 
dollars of borrowings, Saddam would have wanted to call it 
gifts from Saudi Arabia and Kuwait and others in the Gulf which 
he used to fight the Iran-Iraq war. Has the Iraq Government 
made payments on this debt, renounced the debt or does it just 
kind of sit on their balance sheet with no particular 
explanation?
    Mr. McGurk. These are the debts the Iraqis owe?
    Mr. Sherman. This is debts of the Iraqi Government to the 
Governments of Saudi Arabia and Kuwait incurred during the 
Iran-Iraq war.
    Mr. McGurk. Some of those debts, as you know, have been 
forgiven through Paris club commitments, other debts have not. 
I would have to get you the numbers.
    Mr. Sherman. Please get me information on that.
    Now I would like to join with Mr. Wilson and others in 
focusing on Camp Liberty. You had 101 members of the MEK there, 
52 were killed, that is a 50 percent casualty rate for roughly 
a million times for the casualty rate that ordinary Iraqi 
civilians have faced in the unfortunate deaths that have 
occurred in Iraq.
    Included among those who died was the brother of Assaf al-
Mia who I believe is in our audience today. The State 
Department has issued a statement saying, well, the Iraqi 
Government had nothing to do with it, which to me is an 
incredible indictment. They have an obligation to protect the 
residence of the camp, and according to our own State 
Department, did nothing. In fact, the assailants had to get 
past several checkpoints in order to carry out their murders. 
When we were at Camp Liberty, or when we were in Iraq, Camp 
Liberty had 17,000 of those T-WALLs that protect those who live 
in the camp from missiles and mortars.
    Now there are less than 200. What have we done to make it 
clear to Maliki that he has to put back the T-WALLs and provide 
the defense or will he keep the people there subject to attack 
and then disclaim any responsibility when they are, in fact, 
attacked?
    Mr. McGurk. I just want to make clear what the U.S. 
position is, we looked at this very closely in terms of no 
credible evidence going all the way up to the top of the Iraqi 
Government in terms of this particular attack.
    Mr. Sherman. But you have no credible evidence that they 
lifted a finger to stop it?
    Mr. McGurk. Iraq, as I said in my testimony, is an 
extremely violent place and a couple of months before the 
Ashraf attack the Abu Ghraib prison complex was attacked by 
hundreds of al-Qaeda-linked fighters. And they took over the 
prison or, at least almost everyone in the prison. We think in 
that attack, there was no foreign knowledge from the highest 
levels of Iraqi Government, there was probably some complicity 
at a local level, and we think the Ashraf attack was similar.
    Mr. Sherman. Complicity at the local level?
    Mr. McGurk. I think it is a reasonable assumption there was 
some.
    Mr. Sherman. What about complicity with the failure of 
Maliki to deploy the 17,500 T-WALLs?
    Mr. McGurk. The T-WALLs--as you know, when the residents 
move into Camp Liberty, it had the same T-WALL configuration we 
had to protect troops, and the residents, and I can understand 
why, says this looks like a prison we want to get the T-WALLs 
out, and so all the T-WALLs came out. Given the threat they are 
under the T-WALLs have been moving back in.
    There are different numbers on the numbers of T-WALLs. I 
was just at the camp about a month about or so ago, or a couple 
of months ago, and saw with my own eyes. And I want to get more 
T-WALLs into the camp. I spoke with Ambassador Beecroft about 
this just today, and there is an agreement with the Iraqi 
Government, we have to get the right meeting and place the 
right people there for where the T-WALLs are going to go, and I 
think we will see more T-WALLs moving into the camp, but we are 
continuing to work as hard as we can.
    Mr. Sherman. We have fewer than 200, we need 17,500. I 
yield back.
    Mr. DeSantis [presiding]. The Chair now recognizes the 
gentleman from California. You are lit up.
    Mr. Rohrabacher. Thank you very much. All right. Well, 
where do we start? I just, $880 million in aid after at least 
of the money we will be expending for Iraq after spending 
almost $1 trillion over a decade, and 6,000 lives for which I 
have seen no gratitude whatsoever from senior members of the 
Iraqi Government, nor from the Iraqi people. Why do we care 
anymore about whether or not al-Qaeda is operating and killing 
some of their soldiers? Why do we care? They don't care for us, 
they are not grateful for what we have already done. Why should 
we be giving even more money to a country that is headed by 
people of that inclination?
    Mr. McGurk. Congressman, thank you. I just want to clarify, 
the $880 million is our operating request, the current budget 
for sustaining our presence in Iraq and doing various things we 
are doing there.
    Mr. Rohrabacher. That is right. So why should we do that?
    Mr. McGurk. Well, we have a vital interest at stake in 
Iraq, whether you measure it from al-Qaeda, whether you measure 
it from the oil production, whether you measure it from just 
the overall stability of the region. I think withdrawing from 
Iraq in terms of our overall diplomatic presence in what we are 
doing would have a really devastating consequence to our 
longer-term interest. I would point you to an important op ed 
the Iraqi Ambassador wrote on our Veterans Day thanking all the 
sacrifice in Iraq. I would like to see more as well.
    Mr. Rohrabacher. I will have to say that independently, I 
have never had an experience, I have been in and out of Iraq a 
number of times and been with a number of Iraqis. Not once that 
I have someone independently without being told to come up to 
me and say how grateful they are ever to suggest that. I would 
suggest it is a big stretch to say that things going on in some 
province in Iraq because there is some al-Qaeda element there 
murdering other Iraqis that we need to get involved in that any 
more than he have in the past. We are pouring more money down 
the rat hole, but also it really makes a mockery, this whole 
thing makes a mockery of the commitment we have had in the 
past.
    Let me just ask, you believe them from what you have said 
that there was legitimate security reasons that those T-WALLs 
have not been put up at Camp Liberty?
    Mr. McGurk. No, I do not think they are legitimate security 
reasons the T-WALLs have not been put up.
    Mr. Rohrabacher. It sounded to me when I was listening, and 
I listened very closely to what you said, that we can't blame 
the leadership in the Maliki leadership for the lack of 
security at Camp Liberty?
    Mr. McGurk. No, in fact, my conversation from Maliki on 
down is you need as many T-WALLs into that camp as possible, 
without any excuse. Full stop. So you may have heard me say 
something different. I want----
    Mr. Rohrabacher. If I am misinterpreting what you said. 
Now, tell me this, those troops that came into Camp Ashraf 
murdered 52 unarmed MEK refugees, you hold that this was done 
by a rogue element in the Iraqi army or do you think that 
Maliki regime is complicit in this murder?
    Mr. McGurk. I don't believe it was a rogue element. I think 
a lot of this goes back to the background of the situation. 
Camp Ashraf was seen as a forward operating base to the MEK----
    Mr. Rohrabacher. I don't need a background on it. I am 
trying to find out--it is clear that we had Iraqi soldiers 
going in there murdering people who were unarmed, tying their 
hands behind their back and then blowing their brains out. This 
is an atrocity, it is a crime against humanity. Now I don't 
need a background to find out the background on Camp Ashraf. Do 
we hold the government responsible or was it a rogue element? 
And if it was a rogue element in the military, what has the 
Maliki regime done to deal with that?
    Mr. McGurk. Congressman, I would really welcome the 
opportunity to come speak to you in a classified setting and 
tell you everything we know about this attack including, who 
committed the atrocity.
    Mr. Rohrabacher. You know, I am not asking for all the 
information that you know, I am asking who we are holding 
accountable, and we aren't. Clearly, we are sending a message 
to the Maliki government that it is okay, because we are not 
doing anything about it. We have--here is a picture of a 
gentleman who used to work up here, I submit this now, Mr. 
Chairman, for the record. A gentleman who used to work right 
here on Capitol Hill representing the MEK, and we saw him on 
many occasions. And guess what, here is his body at Camp Ashraf 
where they have murdered him, brutally tied his hands behind 
his back and blown his brains out.
    We need to make sure--if we excuse this by lack of 
attention, we are sending our own message as to what values we 
have and we are sending other dictators and terrorists a 
message as well about American weakness. I am not satisfied 
with what this administration is doing on this issue.
    And one last note, Mr. Chairman, and that is, look, these 
people are under attack, I think at the very least, it is my 
opinion right now in this, we should take the people in at Camp 
Liberty, let's just take them in.
    Is there a reason why--I am writing legislation that would 
grant these people asylum, obviously their lives are at stake 
and obviously, they are now unarmed refugees. Is there some 
reason that we should not give them political asylum?
    Mr. McGurk. I will say----
    Mr. DeSantis. The gentleman's time has expired. Do you 
want--maybe you can finish up on one of the other--I am going 
to move it along. I don't see anybody here from the other side 
of the aisle, so I will recognize somebody from this side of 
the aisle. Next person in the queue is Mr. Kinzinger from 
Illinois.
    Mr. Kinzinger. Thank you, Mr. Chairman. And Mr. McGurk, 
thanks for being here and thanks for your service to your 
country. I know it is not always easy but we appreciate what 
you are doing.
    Just a couple of questions as Mr. Wilson so kindly 
mentioned, I am a veteran of Iraq and saw quite a bit of 
sacrifice from the American side in terms of what was created 
there. In fact, I think one of the bravest political decisions, 
and frankly, military decisions that has been made in 50 years 
was the surge in Iraq. I heard a lot of people, including 
frankly the current administration oppose the surge, thinking 
that the war in Iraq is lost. I heard a very powerful person in 
the Senate say that the war is lost, it is time to go home. And 
we saw that despite that, a tough decision was made to surge. 
The surge, the addition of 20,000 additional troops helped, but 
what really helped was the message that the United States, the 
enemy knew we would never be defeated on the battlefield and we 
won't be, the focus that we are committed.
    My good friend, Mr. Rohrabacher, I have to take slight 
exception, I think there is quite a bit at stake in Iraq. I 
think a resurgent al-Qaeda is extremely concerning in Iraq. I 
think resurgent al-Qaeda in a very frankly potentially powerful 
and oil rich Nation is not just not in the interest of the 
Iraqi people, it is not in the interest of the United States, 
it is not in the interest of the free world. And it is 
especially not in the interest of the 6,000 people that gave 
their lives to help create what was created over there.
    I was shocked frankly at the end of 2011 at the complete 
pullout of U.S. forces. I thought we could have negotiated much 
harder for residual force in Iraq. I think had we left the 
residual force in Iraq, we would not be seeing the kind of 
violence we do now. So that said, I don't have a time machine 
and I can't go back in time and convince the President that 
Iraq was in our interest to leave a residual force there.
    I do have a couple of questions about the resurgent AQI 
presence in Iraq. The President's claimed numerous times that 
al-Qaeda's been decimated, but that is not the case. Frankly 
anywhere around the globe or in Iraq, we are seeing sectarian 
violence in Iraq today at levels that we saw when I served 
there, which was completely incomprehensible. Has the 
administration, in your mind, underestimated the growth reached 
in capacity of the al-Qaeda and its affiliates in Iraq?
    Mr. McGurk. Congressman, first thank you for your service, 
and with all that you have seen, your experience is really 
critical to getting this right now. And so I think this dialog 
is very important. I don't want to get into whether it is 
underestimated, I am really focused on my job on where we are 
now and we face a real problem. There is no question that ISIL 
is growing roots in Syria and in Iraq. And the one thing with 
this Iraqi Government, they want to go after this threat and we 
want to help them. We want to help them do it in an effective 
way.
    As you know from your experience, the reason the surge 
worked was not just the troops, it was the strategy. And the 
reason the sons of Iraq and the awakening worked was because of 
really three things: We trusted them, we paid them, and they 
believed they are going to win. Right now the Iraqis are 
telling us and the Minister of Defense, Sa'doun al-Dulaimi, who 
is from Anbar province. They will trust them, they can give 
them resources, but right now, they don't think they are going 
to win because the al-Qaeda groups have better weapons and 
better resources, quite frankly, in some of these areas. So 
that is a problem we are trying to address.
    Mr. Kinzinger. Okay, thank you. In shaping the future 
policy toward Iraq has the administration taken into account 
recent operations launched by AQI's resurgent effort including 
breaking the walls the soldiers harvest campaign in which 
vehicle-borne IEDs have been used in staggering numbers?
    Mr. McGurk. In my testimony, I discussed, I didn't use the 
exact words, but that is Abu Bakr al-Baghdadi's strategy, he 
announced it and then he carried it out. The breaking walls 
campaign was about prison attacks and security forces, and 
others--his campaign was about attacking government targets 
including the Ministry of Justice building in downtown Baghdad 
in March. They attacked the intelligence headquarters in Erbil 
on September 21st. And they have attacked, particularly Shi'a 
civilians week after week after week trying to spark that cycle 
of sectarian violence that we saw at the worst phases of the 
war. So far, the Shi'a militia response has been localized and 
has not had a strategic effect but is something we are watching 
very closely.
    Mr. Kinzinger. Well, thank you. And just in the last 30 
seconds, I have, I just want to say for the record, I hope that 
the administration, and again, we can go back in time and argue 
whether we should have left a residual force, I have made my 
point on that. But I hope that in the future, we are acting 
very proactively to help the Iraq Government root out 
terrorism. I don't know what that necessarily will involve, 
there are some things that I don't want to say here, but I 
think an Iraq that falls prey to al-Qaeda, to lawlessness, 
frankly like we saw in the mid 2000s, would be tragic for the 
United States, for the whole region and for not only our 
reputation, but for a lot of people who just want to live in 
peace. And again, thank you for your service. Mr. Chairman, I 
yield back. Madam Chair, I yield.
    Ms. Ros-Lehtinen [presiding]. Mr. Kinzinger, we are proud 
of your valuable service. Thank you so much. We are very proud, 
we have many vets in our subcommittee, and we thank each and 
every one of them. Mr. DeSantis was one of them. Thank you for 
chairing while I was out. And Mr. DeSantis is now recognized.
    Mr. DeSantis. Thank you, Madam Chairwoman. I had kind of 
cut off your answer when I was chairman because we were way 
over time, so do you just want to answer the question Mr. 
Rohrabacher had asked you about the administration's position 
on asylum for these folks?
    Mr. McGurk. I will defer to the lawyers on some of this, 
but as a former terrorist organization, even though they are no 
longer designated an FTO, there are legal restrictions in terms 
of our ability to bring a large number of the group into the 
United States under existing laws. There are processes that are 
under discussion, and I am happy to discuss that with you in 
follow-up. But a legislative fix on some of these issues is 
something that we would look at.
    Mr. DeSantis. When I was in Iraq, this was kind of right 
when the surge had started, back when I was on active duty. And 
as you know, you were part of that, you had AQI ascending, 2006 
was a disaster. You also had Quds force and the Shiite militias 
wreaking havoc in other parts of Iraq. And the surge was very 
successful at quelling that, but then as I read what is going 
on now, it seems like a lot of what is going on is reminiscent 
of those years. So can you speak to, I know you talked about 
Iran does have a lot of influence particularly in Baghdad 
generally, what is the influence of Quds force and how are they 
interacting with the Iraqi Government, if at all?
    Mr. McGurk. And again, you would recognize from your 
experience, Congressman, if you charted out right now the 
levels of violence on just al-Qaeda violence, suicide bombers 
and vehicle bombs, we are at a level not seen, as the chairman 
said earlier, since 2008. But if you look at overall violence, 
it is still down substantially and the reason for that is 
because the Shi'a militia violence which we were seeing in 
those days has not really responded in reciprocal tit-for-tat 
way. So that is really significant. If we see that type of 
response, it will be very concerning.
    The Quds forces we see right now, they do not want Iraq to 
be destabilized. We do think however that they are working with 
certain Shi'a militia groups, including the top Hezbollah, 
Subil Hok and some of these other groups that you know well. 
And they are really focused, though, on a localized kind of 
mission-by-mission basis.
    All I can say is that in our conversations with the Iraqis, 
we share as much information as we possibly can and make very 
clear that they need to push back against this. Prime Minister 
Maliki does remind us that he did take on the militias in 
Karbil and Basra, and that he is ready to take them on again if 
necessary. But this is something that we just need to keep 
pushing.
    The Iranians have done very maligned things in Iraq, 
particularly when we were present there. Right now it looks 
like they don't want to have a destabilized Iraq, but they are 
also responding to demands from particularly the Shi'a 
community for self-protection in ways that might not be 
particularly helpful.
    Mr. DeSantis. So in terms of AQI, and I take your point 
about the level of violence not reaching those 2006 levels 
which is good, even though it has risen. Back then you had 
foreign fighters coming into Iraq fighting as a part of AQI. 
Now we know Syria is kind of a magnet for a lot of these folks. 
So is it safe to say that most foreign fighters are now going 
to Syria who were the Sunni-aligned foreign fighters? And if 
that is the case, are they going through Iraq, or are some of 
these AQI fighters in Iraq, I guess they are playing a pretty 
big role in facilitating those folks into Syria?
    Mr. McGurk. The suicide bombers we believe are all foreign 
fighters, nearly all of them are foreign fighters, they are 
coming through the ISIL networks, and they are coming from 
Syria into Iraq. So we think what happens there are these young 
guys who are brainwashed to go fight a global Jihad. They show 
up in Syria, if you can fire a rifle you go fight, if you are a 
mechanic, you fix a truck, and if you are just indoctrinated, 
you go be a suicide bomber. And about 40 of them now a month 
are being directed toward Iraq. And the suicide bombers again, 
as I said, are having a real devastating effect.
    In terms of foreign fighters from Iraq going to Syria 
both--you have a youthful population, you have an underemployed 
population, and they are all watching this conflict unfold on 
YouTube with particularly gruesome videos. And that is having a 
militarizing, radicalizing effect, both within the Sunni 
community and the Shi'a community. That is one reason why my 
colleagues on the Syria side of the policy House here are 
trying to work so hard to settle that issue down.
    Mr. DeSantis. And then my final question is does the Iraqi 
Government have a relationship in any way with Hezbollah?
    Mr. McGurk. In terms of a formal relationship, none that we 
have seen in a formalized way.
    Mr. DeSantis. Thank a lot. I yield back the balance of my 
time.
    Ms. Ros-Lehtinen. Thank you so much, Mr. DeSantis, and we 
saved the best for last. A person who just knows that is the 
way it is. So pleased to yield 5 minutes to Judge Poe of Texas.
    Mr. Poe. Thank you, Madam Speaker or Madam Chair. I have 
been to Iraq a lot, I have seen a lot of people in Iraq, and I 
have met with Maliki. I was with Mr. Rohrabacher, we met with 
Maliki and we asked him this one question: Can we go see the 
people at Camp Ashraf and he said, absolutely not. In fact, he 
got so incensed that we asked that question when we were on a 
helicopter flying to the north to see the Kurds, he went to the 
State Department and asked us to leave the country, we were 
kicked out of the country.
    So when you see him get a little emotional and me as well, 
here we are giving billions to a country where the Prime 
Minister refuses to let Members of Congress see what is taking 
place in Camp Ashraf, that is the background. Five attacks on 
Camp Ashraf and Liberty, five, over a period of years. Not one 
criminal has been brought to justice, not one. We don't even 
know their names or who they are. If the Iraqis were serious 
about investigating they would at least bring in somebody. If 
those investigators worked for me when I was a prosecutor they 
would have been fired several attacks ago.
    These people that are here, working people, Americans and 
they are concerned about people they love in Iraq. And they 
constantly are losing friends and family members to attacks. 
Meanwhile the United States, I am not sure what we are doing. I 
now understand that not any of the witnesses have been talked 
to about the latest attack. These are real people that are 
killed, and I am sorry for the graphicness of this poster but 
this has happened at Camp Liberty where the people were in the 
clinic and they were assassinated, they were tracked down and 
murdered.
    Now we would think, being the freedom-loving country we 
are, that we would be opposed to this type of activity and we 
would be a little bit more to pressure it because it is our 
responsibility. You have made the comment that we are not 
taking these people into the United States because they used to 
be a foreign terrorist organization, but the State Department, 
through the Secretary of State, can waive that as has been done 
with 12 previous people who came in.
    When I talked to other countries about why don't you take 
these folks from the MEK, you know what the first thing they 
say is? United States is hypocritical. They say people ought to 
take them but you won't take any of them. Got a good point. 
When we talk to the Germans and the French and the Brits, the 
people in the Netherlands that they ought to take former MEK 
members, they say, well, you are not taking any of them. Good, 
it is an excellent point.
    I find it hard to believe that the Iraqi security forces 
were unaware of this attack when they had to go through 
numerous checkpoints to get to the place where they murdered 
these folks. The Iraqis are responsible for guarding them, they 
were missing in action. They all went on a donut break at the 
time that these homicides occurred, they are always missing.
    And there is a debate about the seven that were taken and 
captured. I have become a real good fan of the French foreign 
affairs minister, especially with the last situation where he 
stopped this bad deal with Iran. But in a letter to some of his 
people in the Parliament, he makes the comment that as far as 
he is concerned, these seven are still in Iraq. My question is, 
have these seven people been rescued to your knowledge, no 
matter where they are?
    Mr. McGurk. No.
    Mr. Poe. Has anybody in the State Department interrogated 
the survivors as far as a criminal investigation going on? Have 
we seen in all of the investigators that we have, or any 
investigators to talk about who happened, what did these people 
look like, et cetera, et cetera?
    Mr. McGurk. We have turned as much information as we 
possibly can to find out where these seven people are. I would 
be happy, as I have done with some members of the subcommittee, 
to brief you in a classified setting.
    Mr. Poe. That is not my question. My question is have they 
been asked specifically about the murders in the camp that they 
survived, about who they were, what they looked like, what they 
said, what language they were speaking, have they been 
interrogated about those basic criminal investigation 
questions?
    Mr. McGurk. We have asked our contacts with the MEK that we 
deal with to put their experts and those of information in 
touch with our experts, particularly at our Embassy to connect 
some of the dots.
    Mr. Poe. We have waived 12 and allowed them to come into 
the United States, why haven't we waived that for people?
    Mr. McGurk. Congressman, I want to be very precise in my 
language, when I mention that a legal fix would help given the 
FTO designation. We are deliberating internally about our 
policy regarding entry into the United States, a decision has 
been made that is why I cannot discuss that further here.
    Mr. Poe. Well, it is the law, is it not, that the Secretary 
of State can waive that under the current law right now, that 
is not any big secret.
    Mr. McGurk. There are mechanisms in which a limited number 
would be able to come into the United States, yes.
    Mr. Poe. So what do we tell these folks, that freedom-
loving folks that are just in a place where they don't want to 
be, we won't take them, we can't get other countries to take 
them. And do you know what they are waiting for, the next 
attack, if we don't hold Maliki accountable. I just want to 
make this comment. I don't know if you have seen this letter or 
not, but 44 of us, 22 Democrats and 22 Republicans have sent a 
letter to the President of the United States saying no more 
money to Iraq until there is accountability for the murders in 
Camp Ashraf. Have you seen that letter?
    Mr. McGurk. I have seen that letter, yes.
    Mr. Poe. Thank you, Madam Chair. I yield back.
    Ms. Ros-Lehtinen. You have to end the same way you always 
end.
    Mr. Poe. And that is just the way it is.
    Ms. Ros-Lehtinen. Thank you. I tease, we saved the best for 
last with Judge Poe, but now we have the best for last on the 
Democratic side, my good friend from Texas, Sheila Jackson Lee. 
I am going to let her take a breath here before she is 
recognized. Ms. Jackson Lee is recognized.
    Ms. Jackson Lee. Let me thank the chairwoman for her 
indulgence and as well as the ranking member for his indulgence 
as well. I would say, Mr. Secretary, many of us have been down 
this road before. And I must say that, I will say that in 
engaging the administration, I have received the 2 o'clock a.m. 
phone calls, I have seen phone calls from the envoy who was in 
Iraq on these crisis issues. And so I can say that I know that 
the heart of the administration is in the right place. I also 
know that there are families who have not been able to be 
engaged with their loved ones, there are families who have seen 
their loved ones dying in bloodshed they have not been able to 
protect.
    There have been promises made as the camps have been moved 
from one place to the next where we have thought that that 
would have been a safe location, a safe house, and come to find 
out the most recent attack, bloody attack that we have 
experienced has really had our ire be raised.
    Now let me just say this, I, along with, I know my 
colleague, the chairwoman during the heat of the Iraqi war, we 
have gone over many times. We have met with Maliki, we were the 
supporters of Iraq standing on its feet. We were the 
supporters, she had one position about the war, I had another 
position about the war, I opposed the war, but we were 
collectively supportive of Iraq being able to get on its feet, 
and Iraq being able to have a constitution. I was engaged in 
the discussions about women being included in the constitution. 
I take no back seat to trying to give Iraq every opportunity to 
be the kind of human rights, dignified democracy that they 
allege that they want to be, to allow everyone to live in 
dignity. This is not happening.
    What I want to focus on, as Mr. Wilson, Mr. Poe, Mr. 
Rohrabacher, on Camp Ashraf, all of them to put it in the way 
of my advocacy for the administration, for Secretary Kerry and 
the enormous work that is being done, and my hope for the 
success of his work, but there are hostages in Iraq that we 
must have now. There is documentation that those hostages are 
there by our French allies, by the United Nations and other 
supportive groups and information.
    I can't imagine with the wealth of sophisticated 
intelligence authorities that we have, that we have funded, who 
have a vast array of information about Americans cannot 
pinpoint where starving Iranians, loved ones whose families are 
trying to save their lives after being on a hunger strike for 
73 days. So I would ask this question of you, already knowing 
about your heart and your concern, I will not judge you, I 
already know that you are committed to getting this right. Will 
you, will you demand of Maliki not next week, not months from 
now, but can we expect in the next 48 hours a call to the head 
of the Government of Iraq demanding the release of these 
hostages and demanding for their release now, or the documented 
undeniable evidence that they are not held within the bounds of 
Iraq.
    Second, would you be engaged with, or the Secretary be 
engaged with, and I have spoken to Secretary Kerry, I know his 
heart, with Maliki to demand the security of those in Camp 
Ashraf for now and forever until an ultimate solution of 
relocation to their homeland, a place of where their relatives 
are, or where they desire to be. Mr. McGurk, thank you for your 
testimony here today and I thank the gentlelady for yielding. I 
am short on this time, but I am hoping I will hear from you in 
a moment.
    Mr. McGurk. Congresswoman, thank you and thank you for your 
engagement on all of these issues. I know we have had 
conversations at particularly difficult times. I want to thank 
you personally.
    We can't pinpoint where the people are, and I would like to 
follow up with you on that. They are not in Iraq, the seven 
people. But I will guarantee that in my conversations with 
Maliki on down, the safety and security of Camp Ashraf, Camp 
Liberty of where the residents are, the Iraqi Government needs 
to do everything possible to keep those people safe but they 
will never be safe until they are out of Iraq. And we all need 
to work together, the MEK, us, the committee, everybody, the 
international community to find a place for them to go.
    There is now a U.N. Trust Fund, we have donated $1 million 
and we are asking for international contributions to that fund 
for countries like Albania that don't have resources but are 
willing to take the MEK in, and we need to press foreign 
capitals to take them in because until they are out of Iraq, 
they are not going to be safe. And we don't want anyone else to 
get hurt, we don't want any more Americans to get hurt in Iraq, 
and we don't any more residents of Camp Liberty to get hurt in 
Iraq. And until they are out of Iraq, they are not going to be 
safe. This is an international crisis and we need international 
help and support.
    Ms. Jackson Lee. May I just have a moment more to follow 
up, Secretary McGurk, I hear the passion in your voice. We are 
in an open hearing, you know where they are who is going to 
rescue them? Whose responsibility will it be to get them from 
where they are into safe haven? Because otherwise, we are 
leaving Maliki now without responsibility. We are saying, and 
you are documenting that they are not there. Let me just say 
that when my government speaks, I try with my best heart and 
mind to believe it. But I have got to see them alive and well 
to believe that they are not where I think they are, but they 
are in a--I am glad to hear that, I want them to be safe, but I 
want them to be in the arms of their loved ones or at least to 
be recognized by their loved ones that they are safe somewhere. 
So can that be done in the next 48 hours? Can we have a manner 
that indicates that they are safe?
    Mr. McGurk. I will repeat here a statement that we issued 
on September 16th, and it is notable, I was going to mention 
this in my colloquy with the Congressman to my left, that 
within hours of the attack, the Iranian Revolutionary Guard 
Corps issued a statement praising the attack. We issued a 
statement on September 16th calling on the Government of Iran 
to use whatever influence it might have with groups who might 
be holding its missing persons to secure their immediate 
release. And I can talk more about details and about the status 
of these individuals and brief some members of the 
subcommittee. I would be happy to follow up.
    Ms. Ros-Lehtinen. Thank you very much. Thank you Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much.
    Ms. Ros-Lehtinen. Mr. McGurk, thank youtestimony, thank all 
the witnesses in the audience for your participation and with 
that the subcommittee is adjourned. Thank you, sir.
    [Whereupon, at 4:08 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
